September 15, 2008

CYNTHIA F. MALLONEE
MANAGER, LOGISTICS

SUBJECT: Management Advisory Report – Best Practices for Post-Implementation
         Reviews of Airport Mail Center Initiatives (Report Number EN-MA-08-002)

This report presents the results of our review of the Best Practices for Post-
Implementation Reviews of Airport Mail Center (AMC) Initiatives (Project Number
08XO005EN000). The report responds to a request from the Vice President, Network
Operations. Our objective was to identify best practices associated with post-
implementation reviews (PIR) for outsourcing and consolidation initiatives. This review
addresses both strategic and operational risks. Click here to see the attached
PowerPoint presentation for additional information about this review.

Conclusion

Our review identified best practices in the use of PIRs at other government
organizations. These best practices help to determine whether outsourcing initiatives
achieve intended results, and could be of assistance to the U.S. Postal Service.

Best Practices Associated with Post-Implementation Reviews

Postal Service management requested assistance in developing a PIR process for the
AMC outsourcing initiatives. Management’s request was in response to a previous U.S.
Postal Service Office of Inspector General (OIG) audit recommendation.1

This management advisory report identifies best practices associated with PIRs from
other federal agencies. In addition, the OIG identified the essential elements for
conducting PIRs of outsourcing and consolidation initiatives. The PIR process should
assist management in identifying savings achieved by these initiatives. Results from
the PIR process should provide management with data for complying with requirements
in the Postal Accountability and Enhancement Act to report the savings and costs from
realignment or consolidation initiatives. See Table 1 for a suggested PIR framework.




1
    St. Louis Airport Center Outsourcing (Report Number EN-AR-08-002, dated February 29, 2008).
Best Practices for Post Implementation Reviews                                          EN-MA-08-002
 of Airport Mail Center Initiatives




                                    TABLE 1. PIR FRAMEWORK

                                               PLAN THE PIR
 Use an independent team
 Use data for last four quarters prior to start of initiative as a baseline
 Conduct review 12 months after initiative has been fully implemented
                                        ASSESS THE INITIATIVE
 Background information
 Customer satisfaction
 Customer and service impacts
 Equipment relocation and maintenance, if any
 All costs associated with the initiative, including: contract, contract administration, additional
 transportation requirements, staffing, workhour costs, added costs to facilities affected by the initiative
 All savings associated with initiative, including: reduction in staffing and workhours, reduction in indirect
 costs, reduction in transportation costs
 Identify other cost savings programs which could affect results, but were not associated with the
 initiative
 Any unanticipated costs/savings from the initiative
 Efficiency gains/losses at all facilities affected by the initiative
 Comparison of estimated costs/savings to actual costs/savings
 Determine why there were any differences in costs/savings
                                         PREPARE THE REPORT
 Include summary narratives that address the issues
 Compare the approved plan with the implemented project
 Obtain signatures of appropriate levels of management to ensure awareness of successes and
 deficiencies resulting from the initiative
 Maintain supporting documentation for at least 3 years after the PIR

We discussed our observations and conclusions with management officials on
August 13, 2008. This report is provided for information only and although a response
was not required, we provided Postal Service management the opportunity to comment
on the report. Management stated they appreciated the review and thought the
information provided would assist in the development of the AMC PIR process, but had
no specific comments.




                                                       2
Best Practices for Post Implementation Reviews                        EN-MA-08-002
 of Airport Mail Center Initiatives


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, Director,
Network Optimization, or me at (703) 248-2100.
     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachment

cc: Patrick R. Donahoe
    William P. Galligan, Jr.
    Anthony M. Pajunas
    Mary T. Taylor
    Katherine S. Banks




                                                 3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
